Audit Report 97-29A - Table of Contents
Federal Bureau of Investigation
Annual Financial Statement
Fiscal Year 1996
Audit Report 97-29A, (8/97)
TABLE OF CONTENTS
COMMENTARY AND SUMMARY
MANAGEMENT'S OVERVIEW
INDEPENDENT AUDITORS' REPORTS
REPORT ON THE PRINCIPAL FINANCIAL STATEMENTS
REPORT ON INTERNAL CONTROL
REPORT ON COMPLIANCE
PRINCIPAL FINANCIAL STATEMENTS
STATEMENT OF FINANCIAL POSITION
STATEMENT OF OPERATIONS AND CHANGES IN NET POSITION
NOTES TO PRINCIPAL FINANCIAL STATEMENTS
SUPPLEMENTAL FINANCIAL AND MANAGEMENT INFORMATION
APPENDIX - AUDIT DIVISION ANALYSIS AND SUMMARY OF
ACTIONS NECESSARY TO CLOSE THE REPORT 49
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
This audit report contains the Annual Financial Statement of the Federal Bureau of
Investigation (FBI) for the fiscal year ended September 30, 1996. The report includes the
FBI management's overview, the principal financial statements and related notes,
supplemental financial and management information, and the independent auditor's reports
on the principal financial statements, internal controls, and compliance with laws and
regulations. The annual financial statement is the responsibility of the FBI's
management. This audit was performed as part of the Department of Justice's (DOJ) effort
to implement the Government Management Reform Act of 1994 (GMRA) which requires an annual
financial statement audit of the DOJ beginning with FY 1996. The results of the annual
financial statement audit of the FBI as presented in this report will be relied upon by
Price Waterhouse LLP in its performance of the consolidated financial statement audit of
the DOJ, which will be issued in a separate report by the Office of the Inspector General
(OIG).
The OIG contracted with KPMG Peat Marwick LLP, Certified Public Accountants (CPA), to
perform the FY 1996 audit of the FBI's Statement of Financial Position. The audit was
conducted in accordance with generally accepted government auditing standards and Office
of Management and Budget Bulletin No. 93-06, "Audit Requirements for Federal
Financial Statements." The OIG performs an oversight role in the audit process and
ensures compliance with the GMRA by monitoring the progress of the audit, reviewing
supporting workpapers, coordinating the issuance of reports, and following up on findings
and management letter issues.
Reporting Entity
The FBI's mission of serving the needs of the public is many-fold. At present, the FBI
has investigative jurisdiction over violations of more than 200 categories of federal
crimes. To achieve their mission, the FBI received $2.5 billion in direct appropriations
for FY 1996, including those for the Violent Crime Reduction Program. Reimbursable funding
levels, totaling about $393 million, provided the FBI with the resources to participate in
several joint-agency enforcement efforts, including Organized Crime Drug Enforcement Task
Forces, Regional Drug Intelligence Squads, and the Asset Forfeiture Program. The FBI also
offers cooperative services such as fingerprint identification, laboratory examination,
police training, Uniform Crime Reports, and the National Crime Information Center to duly
authorized law enforcement agencies.
Audit Results
The audit resulted in a qualified opinion on the statement of financial position due to
the FBI's inability to provide adequate records to support its capital lease assets and
liabilities, and the FBI's inability to support the completeness of its seized assets
records. The accompanying report on the internal control structure identified material
weaknesses with respect to the above mentioned items and also identified reportable
conditions with respect to accounts receivable, property and equipment, accounts payable,
and electronic data processing service interruption. The accompanying report on compliance
with laws and regulations did not identify any material weaknesses. Other conditions
involving the internal control structure and its operations were noted by the independent
auditors and will be communicated, under separate letter, to management. The CPA firm also
reviewed management's process for evaluating and reporting on internal controls and
accounting systems as required by the Federal Managers' Financial Integrity Act (FMFIA),
and compared the agency's most recent FMFIA reports with the evaluation they conducted of
the FBI's internal control structure. The auditors were not contracted to perform control
testing sufficient to enable them to express an opinion on the management's assertions
over the effectiveness of the internal control structure or compliance with laws and
regulations. Accordingly, they did not express such an opinion.
Financial and Other Operating Highlights
During FY 1996, funding was approved for the construction of a new state-of-the-art
laboratory facility in Quantico, Virginia. Moving the laboratory from FBI headquarters
will allow expansion of current laboratory examinations in the new facility. According to
the FBI, the estimated cost of construction is $130 million.
In August 1996, President Clinton signed the Health Insurance Portability and
Accountability Act. The act calls for joint establishment of a Fraud and Abuse Control
Program by the Attorney General and the Department of Health and Human Services no later
than January 1, 1997. The Act appropriates $47 million to the FBI in FY 1997 for the
administration and operation of the program. Fraudulent health care expenditures were
estimated at $100 billion during FY 1996.
U. S. Department of Justice
Federal Bureau of Investigation
Washington, DC 20535
MANAGEMENT'S OVERVIEW
Background, Mission, and Goals
The agency now known as the Federal Bureau of Investigation (FBI) was founded in 1908
when Attorney General Charles J. Bonaparte appointed an unnamed force of Special
Agents to be the investigative force of the Department of Justice (DOJ). Prior to that
time, DOJ borrowed Agents from the U.S. Secret Service to investigate violations of
federal criminal laws within its jurisdiction.
The FBI is the principal investigative arm of the DOJ. Title 28, United States Code
(U.S.C.), Section 533, authorizes the Attorney General to "appoint officials to
detect...crimes against the United States," and other federal statutes give the FBI
the authority and responsibility to investigate specific crimes. At present, the FBI has
investigative jurisdiction over violations of more than 200 categories of federal crimes.
Top priority has been assigned to the five areas that affect society the most:
counterterrorism, drugs/organized crime, foreign counterintelligence, violent crimes, and
white-collar crimes. The FBI is also authorized to provide other law enforcement agencies
with cooperative services, such as fingerprint identification, laboratory examinations,
police training, Uniform Crime Reports, and the National Crime Information Center.
The Mission of the FBI is to uphold the law through the investigation of
violations of federal criminal law; to protect the United States from foreign intelligence
activities; to provide leadership and law enforcement assistance to federal, state, local,
and international agencies; and to perform these responsibilities in a manner that is
responsive to the needs of the public and is faithful to the Constitution of the United
States.
The General Goals of the FBI are to:
- Investigate violations of the laws of the United States within FBI jurisdiction,
collect evidence in domestic and international cases in which the United States is or may
be a party of interest.
- Collect, analyze, and exploit information to identify and neutralize the activities
of foreign powers and their agents, and domestic entities, that adversely affect the
United States' national security through counterintelligence, counterterrorism, and
security countermeasures investigations.
- Provide forensic, identification, information, and training services external to the
FBI.
- Provide effectively and efficiently those supporting services necessary to the
accomplishment of the FBI mission.
- Provide effective national and organizational leadership, as well as, effective
direction, control, and administration of resources.
Organization
The FBI is a field-oriented organization in which nine divisions and four offices
at FBI Headquarters (FBIHQ) in Washington, D.C., provide program direction and support
services to 56 field offices, approximately 400 satellite offices known as resident
agencies, four specialized field installations, and 34 foreign liaison posts. (See FBI
Organization Chart in the Supplemental Financial and Management Information
section). The foreign liaison offices, each of which is headed by a Legal Attaché or
Legal Liaison Officer, work abroad with American and local authorities on criminal matters
within FBI jurisdiction.
The FBI has approximately 10,900 Special Agents and 14,600 other employees who perform
professional, administrative, technical, clerical, craft, trade, or maintenance
operations.
FBI field offices are located in 56 major cities. Of those, 55 are in the United
States, and one is located in Puerto Rico. Each FBI field office is overseen by a Special
Agent in Charge (SAC) except for those located in Los Angeles, New York City and
Washington, D.C. Due to their large size, those offices are each managed by an Assistant
Director in Charge (ADIC).
The FBI also operates specialized field installations: one Regional Computer Support
Center at Fort Monmouth, New Jersey; and three Information Technology Centers (ITCs) --
one at Butte, Montana, one at Pocatello, Idaho, and one at Savannah, Georgia. The ITCs
provide information services to support field investigative and administrative operations.
The Critical Incident Response Group (CIRG) was established in 1994 to facilitate the
coordination of FBI responses to major law enforcement crises and special investigations.
The CIRG responds to crimes which pose great dangers and require skills that are not
routinely available in many law enforcement agencies.
Budget Resources and Initiatives/Accomplishments
The FBI is provided direct budget authority through the Salaries and Expenses
(S&E), Violent Crime Reduction Program, Construction, and Telecommunications Carrier
Compliance appropriations (beginning in FY 1997). The FBI is also provided significant
levels of budget authority through reimbursable funding. For FY 1996, the FBI's enacted
level included $2,530,045,000 in direct appropriated funding. (See FY 1996 budget chart
in the Supplemental Financial and Management Information section). The FBI also
received approximately $393 million in reimbursable funding. Reimbursable funding is
received from a number of sources, such as the Organized Crime Drug Enforcement, Assets
Forfeiture Fund, Identification User Fee (Non-federal), and Name Check program activities.
Additionally, on August 21, 1996, President Clinton signed the Health Insurance
Portability and Accountability Act (HIPAA) of 1996. The HIPAA established a health care
fraud enforcement fund with the United States Treasury and directs that the FBI be
provided specific funding levels for health care fraud investigations without further
appropriation. The funding provided under this legislation will be provided on a
reimbursable basis. Health care expenditures in 1996 are estimated to exceed $1 trillion,
of which $100 billion is estimated to be fraudulent.
It should be noted that many critical investigations were conducted during FY 1996,
such as those relating to the Oklahoma City bombing, Centennial Park Olympic bombing, and
the UNABOMB case. Additionally, significant investigative results were achieved in the
programs addressing terrorism, organized crime, drugs, white-collar crime, violent crime,
gangs and juvenile crime, sexual exploitation of children, hate crimes, and foreign
counterintelligence.
The budget initiatives identified in the "FY 1998 Authorization and Budget Request
for the Congress" were in the planning and/or implementation phases during FY 1996.
The seven initiatives are summarized below:
· Technology Crimes. Illegal electronic intrusion into computer networks
is a rapidly escalating crime problem. White-collar criminals, economic espionage agents,
organized crime groups, foreign intelligence agents, and terrorist groups have been
identified as "electronic intruders" responsible for penetrations of American
computer networks. Recognizing the potential impact to the government and the private
sector, as well as the national security, the FBI established a Computer Investigations
and Infrastructure Threat Assessment Center (CITAC) at FBI Headquarters.
A significant threat to computer information security is the theft of trade secrets,
whether conducted by insiders or competitors. An example involves William Gaede, who was
employed by Intel Corporation until he was terminated for theft of proprietary
information. After an FBI investigation, Gaede was indicted in October 1995, for Mail
Fraud and Interstate Transportation of Stolen Property. This indictment related to
material valued at approximately $20 million that Gaede had stolen from Intel.
· International Law Enforcement. The FBI believes it is essential to
station agent and support staff in other countries to prevent foreign terrorism and
foreign crime from reaching into the United States. These employees work closely with
authorities of host countries to build cop-to-cop bridges that help all law abiding
societies to develop cooperative efforts that better protect their people and our people.
In June 1996, the FBI provided Congress with a four-year plan for expanding overseas
operations beginning in 1996. Under this plan, the number of FBI Legal Attaché offices
would increase from 23 in 1996 to 46 in 1999.
· La Cosa Nostra (LCN). The LCN remains the foremost organized criminal
threat to American society. There are currently over 1,200 "made" members of the
LCN and many additional associates. Less than 10 percent of identified LCN members are
currently incarcerated.
In 1996, the FBI began implementation of a five-year strategic plan, named
"Operation Heaven's Gate," to further reduce the LCN's influence over labor
unions and certain industries, as well as to reduce the membership of all LCN families.
On June 10, 1996, a Grand Jury in the Southern District of New York indicted the Acting
Boss, the Acting Underboss, the Consigliere, and 16 other members and associates of the
Genovese LCN Family on racketeering charges. The acts of racketeering included murder,
extortion, labor racketeering, gambling, loansharking, money laundering, the fraudulent
operation of the Feast of San Gennaro, obstruction of justice and tax evasion. The
indictment also seeks forfeiture to the United States of numerous assets of the defendants
including approximately $20 million representing the proceeds of the charged acts of
racketeering, property, a boat, numerous bank accounts belonging to the defendants and
approximately $115,000 in cash seized from safe deposit boxes.
· Infrastructure. The Office of Public and Congressional Affairs
provides information to the public as they request information for themselves, family
members, movie stars, court cases, and other matter for which the FBI holds government
documentation. The FBI is developing the Freedom of Information/Privacy Acts (FOIPA)
Document Processing System (FDPS) to fully automate the FBI's FOIPA operation. During
1994, the Department of Justice recognized the FBI's FDPS as a National Performance Review
laboratory. The Electronic Freedom of Information Act of 1996 (EFOIA) requires all
Government agencies to provide public information to requesters in electronic format,
i.e., compact disk or floppy diskette. The EFOIA also requires that computer-based
information in addition to paper records kept by agencies be subject to review. Further,
all FOIPA reading room material created on or after November 1, 1996, must be available in
electronic format by November 1, 1997.
· Telecommunications Carrier Compliance. The Communications Assistance
for Law Enforcement Act (CALEA) (P.L. 103-414) clarified the duty of the telecommunication
carriers to assist law enforcement agencies with the lawful interception of communications
and the collection of call-identifying information in a rapidly changing
telecommunications environment. This legislation was necessitated by the erosion of law
enforcement interception abilities and the frustration of court orders for electronic
surveillance as a result of the deployment of advanced telecommunications technologies.
The FBI documented to Congress 183 cases where advanced telecommunications equipment had
impaired or prevented execution of a wiretap court order.
· Southwest Border. The Southwest Border Project is a joint FBI, Drug
Enforcement Administration, United States Customs Service, and DOJ initiative targeting
the most significant Mexican Drug Trafficking Organizations (MDTOs). These organizations
are involved in the trafficking of bulk quantities of cocaine, marijuana, and heroin, as
well as the laundering of money obtained from drug activities. Furthermore, they employ
violence to support their operations.
The project has had a significant impact on Mexican Criminal Enterprise Activity along
the Southwest Border during 1996, resulting in the disruption of the four most significant
target organizations and the dismantlement of several related organizations. The major
targeted organizations are the Amado Carrillo Fuentes Organization; Arellano Felix
Organization; Miguel Caro Quintero Organization; and the Juan Garcia Abrego Organization
(JGAO).
In January 1996, "Top Ten" fugitive Juan Garcia Abrego was arrested in Mexico
and expelled to the United States. He was subsequently convicted on 22 counts. On January
31, 1997, Abrego was sentenced to nine life sentences, eleven 20-year sentences to run
concurrently, and a fine of $128,312,098. In March of 1997, Oscar Malherbe, Abrego's chief
lieutenant, was arrested in Mexico. These actions have resulted in the dismantlement of
the JGAO.
In 1995, the San Diego FBI Office formed a Border Corruption Task Force (BCTF) to
target U.S. officials illegally facilitating drug trafficking activity. The efforts of the
San Diego BCTF resulted in the convictions of seven federal public officials and 12
nonpublic officials in 1996.
· Construction.
- FBI Laboratory. The FBI Laboratory is one of the largest and most
comprehensive crime laboratories in the world. It provides leadership and service in the
scientific solution and prosecution of crimes throughout the United States and is the only
full-service federal forensic laboratory. During FY 1996, the FBI Laboratory examiners and
technicians conducted 696,543 examinations of evidentiary items submitted.
The ability of the FBI to continue to provide forensic examination services to federal,
state, and local law enforcement and criminal justice personnel requires an adequate
facility in which to perform the necessary examinations and services. Presently, the FBI
Laboratory is located in the FBI Headquarters building in Washington, D.C., and the
Forensic Science Research and Training Center is located on the campus of the FBI Academy
in Quantico, Virginia. The FBI Laboratory suffers from severe space limitations, safety
and health risks, and inadequate utility and environmental support.
In recognition of the inadequacies of the present FBI Laboratory, the Administration
and the Congress have endorsed the FBI's proposal to construct a new state-of-the-art
laboratory facility. The current estimated cost for constructing a new FBI Laboratory
facility is $130,000,000.
The FBI has selected a 28-acre site at the FBI Academy in Quantico, Virginia, as the
site for the new FBI Laboratory facility. The main office and forensics laboratory
building will have approximately 427,400 square feet of space and house the existing staff
of approximately 700 Laboratory Division employees. Construction is scheduled to begin in
the Summer of 1997, with phased occupancy planned for the Summer/Fall of 2000. In this
regard, a number of activities were completed in FY 1996 relative to the project: project
funding approval, Architectural and Engineering (A & E) Statement of Work and A &
E selection.
- Renovation of FBIHQ Building. The ongoing relocation of the Criminal
Justice Information Services (CJIS) Division to Clarksburg, West Virginia, and the planned
relocation of the Laboratory Division to new facilities at Quantico, Virginia, will
necessitate the renovation of approximately 405,880 square feet of space in the FBI
Headquarters Building that is being vacated by these components.
Other Initiatives/Accomplishments
· CJIS Facility. The CJIS division serves as the focal point and central
repository for criminal justice information services in the FBI. As a result of several
factors, including insufficient space requirements to house new technological systems and
the desire to create improved working conditions for a large number of employees, the FBI
explored relocation options. Following a thorough and in-depth relocation study, a site in
Clarksburg, West Virginia, was selected for the new facility. In January 1991, the FBI
purchased a 986-acre site, on which six buildings were constructed. The main office
building is of modular construction, approximately 600,000 square feet, and provides
office space for 2,500 employees. Construction was completed in July 1995, and the FBI
began moving employees into the new facility at that time from FBI Headquarters.
Currently, approximately 2,000 employees are working at the new fingerprint identification
facility, with plans to transfer the remaining 250 Headquarters employees by the end of
Fiscal Year 1997.
· Combined DNA Index System (CODIS). The FBI developed CODIS to function
as a national DNA database system containing indices of DNA profiles from convicted
offenders and unsolved crime scenes.
DNA testing is provided free of charge to any law enforcement agency in the United
States. From 1991 to 1993, DNA cases submitted to the FBI Laboratory increased by 53
percent. From 1995 to 1997, it is projected that DNA cases submitted will increase by
another 92 percent.
· DRUGFIRE. DRUGFIRE is a computer database system which allows
laboratories within a region or large metropolitan area to exchange and compare images of
firearms evidence (i.e., bullets and cartridge cases). As of December 1996, there were 73
DRUGFIRE sites within the United States, with another 75 laboratories expected to install
DRUGFIRE by the end of calendar year 1997. DRUGFIRE has linked nearly 1,400 pairs of
cartridge cases, matching one of every eight cartridge cases entered from crime scenes and
providing police with investigative leads that would otherwise have gone undetected.
· Integrated Automated Fingerprint Identification System (IAFIS). The
FBI is developing IAFIS, which will completely replace the existing fingerprint system and
improve processing capabilities and turnaround time. IAFIS is designed to process an
average volume of 60,000 fingerprint records per day within two to 24 hours. The updated
cost estimate for IAFIS is $640 million, which includes $611,500,000 for developmental
activities (including $48,400,000 for system integration), and $28,500,000 for
non-development costs.
· International Training. In April 1995, the International Law
Enforcement Academy at Budapest began operating within the Hungarian National Police
Academy facility. Representatives of 27 countries from Central and Eastern Europe, Russia,
and the newly independent states of the former Soviet Union have expressed interest in
sending students to the facility, which has a curriculum modeled after the FBI National
Academy and will focus on areas including organized crime, economic crime, and nuclear
non-proliferation.
· National Crime Information Center (NCIC). In 1967, the FBI established
the NCIC as a nationwide database containing data and information files, such as wanted
and missing persons, foreign fugitives, unidentified persons, and stolen property. The
NCIC system contains over 32 million records stored in 14 information databases. The
system is accessed by law enforcement agencies and officers resulting in over 600,000,000
annual transactions. The current NCIC system will be replaced by the NCIC 2000 system. The
new system will provide additional functionalities, such as mug shots and fingerprint
identification, to serve the criminal justice community into the twenty-first century. The
initial operating capability is anticipated for July 1999.
Financial Improvements
The FBI is committed to a process of continuous self-evaluation and streamlining and
making improvements to its financial processes. The FBI has previously contracted with
outside firms to evaluate the process of preparing financial reports, most recently
evaluating the FBI's ability to prepare financial statements for audit. The FBI has also
maintained a proactive posture with respect to the implementation of the Standard General
Ledger. Other efforts are directed at migration toward electronic payments within the
overall electronic commerce initiative (e.g., electronic deposit of funds into employee
accounts for official reimbursement and electronic payment of FBI commercial invoices).
Many efforts have also been made to reconcile data and to improve the quality of data
resident in the FMS.
Another example of the FBI's commitment to improvement involves recent efforts to
improve financial analysis and reporting. The FBI has undertaken a rigorous analysis of
its annual program costing process with the intent of enhancing the quality of the
reportable data, and secondly of increasing the frequency of the analysis to a quarterly
basis.
Within the Finance Division, a pilot electronic document management system is being
implemented within the Commercial Payments Unit (CPU), Accounting Section. The project is
entitled the Business Process Improvement Project (BPI). BPI has been initiated in
response to both financial and physical constraints.
The CPU currently generates approximately one million document pages per year for
storage; the number will rapidly approach 1.5 million document pages per year. The
Accounting Section will address these challenges by employing imaging and workflow
technology. Through this technology, the Accounting Section plans to create a paperless
office environment within the CPU. Invoices will be stored, processed, filed, and
retrieved electronically. The requirements study and the hardware and software evaluation
were performed during the Summer of 1996. The prototype will be developed within the
coming months. Currently, the project team is procuring hardware, software and integration
services.
Additionally, the Government Performance and Results Act (GPRA), the CFO Act of 1990
and other regulatory changes require that the Finance Division produce and process
financial information rapidly and provide increasingly complex financial information for
external reporting.
Another goal of the Finance Division is to upgrade the Financial Management System
(FMS) software. The upgrades are being performed by the Information Resources Division and
Mnemonic Systems, Inc. The implementation of the new 96.01 software release will ensure
that the FMS is year 2000 compliant and will provide many functional and systemic
enhancements.
The current FMS was implemented in 1987 using commercial software developed by Dun
& Bradstreet Software. The FMS is composed of a suite of software modules that perform
Purchasing, Accounts Payable, Budgetary Control, General Ledger, Inventory Management,
Third Party Draft, and Fixed Assets operations. These modules ensure that the FBI manages
its financial resources independently and in compliance with established regulations,
provide field and Headquarters managers with timely and accurate financial information,
enhance the FBI's cash management policies by decentralizing its funds control to the
field offices via the Third Party Draft System, and directly support field operations by
ensuring case expenditures are paid in a timely manner and vendors are reimbursed as
required.
Performance Goals and Results
The FBI established a long-term implementation plan for compliance with the GPRA during
early FY 1996, and this plan has been followed aggressively since that time. (See Performance
Goals and Results in the Supplemental Financial and Management Information section).
Management's Assertions
FBI management asserts that it is responsible for maintaining internal accounting and
administrative controls that are adequate to ensure that transactions are executed in
accordance with budgetary and financial laws and other requirements, consistent with
purposes authorized, and are recorded in accordance with federal accounting standards;
that assets are properly safeguarded to deter fraud, waste, and abuse; and that
performance measurement information is adequately supported.
Limitations of the Financial Statements
The FBI's financial statements have been prepared to report the financial position and
results of operations of the entity, pursuant to the requirements of 31 U.S.C. 3515(b).
While the financial statements have been prepared from the books and records of the FBI
in accordance with the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from
the same books and records.
The statements should be read with the realization that they are for a component of the
United States Government, a sovereign entity. One implication of this is that liabilities
cannot be liquidated without legislation that provides resources to do so.
#####